CERTIFICATE OF COMPLIANCE
Case No. - - - - Caption: Gentile v. SEC
As required by Supreme Court Rule 33. l(h),
I certify that the document contains 8,834 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33. l(d).
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on December 23, 2019

Record Press, Inc.

Sworn to before me on
December 23, 2019
Nadia R. Oswald-Hamid
Notary Public, State of New York
No. 01OS6101366
Qualified in Kings

~~0023

